No. 19-968

 

IN THE

Supreme Court of the United States

CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,

Petitioners,
v.

STANLEY C. PRECZEWSKI, JANN L. JOSEPH, LoIs C.
RICHARDSON, JIM B. FATZINGER, TOMAS JIMINEZ,
AILEEN C. DOWELL, GENE RUFFIN, CATHERINE
JANNICK DOWNEY, TERRANCE SCHNEIDER, COREY
HUGHES, REBECCA A. LAWLER, AND SHENNA PERRY,

Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

BRIEF OF AMICI CURIAE GENERAL
CONFERENCE OF SEVENTH-DAY
ADVENTISTS AND PACIFIC PRESS
PUBLISHING ASSOCIATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,931 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 29, 2020.

Colin Casey an
Wilson-Epes Printing Co., Inc.
